Audit of the Employee Transit Benefit Program:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of the Employee Transit Benefit Program:  Executive Summary
September 30, 1994
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
The Federal Election Commission Transit Benefit Program,
established in April of 1992 provides a monthly transit subsidy
to eligible employees who commute by means other than single
occupancy motor vehicles.  The Office of Inspector General (OIG)
conducted an audit of the program to assess compliance with
agency and statutory requirements, review the internal controls,
and assess the effectiveness of the program.  The OIG concluded
that the FEC Transit Benefit Program is operated very well and
generally complies with statutory and agency requirements.  In
addition, the internal controls of the program are sufficient to
prevent fraud, waste or abuse.  A survey conducted by the OIG
during the course of the audit revealed that the program has been
effective in encouraging employees to change their commuting
habits in favor of public transportation.  Among the 161
responses out of 235 surveyed, 40 participants (or approximately
25%) changed their primary method of commuting to public
transportation after the implementation of the transit benefit
program.